No:

IN THE
SUPREME COURT OF THE UNITED STATES

LEONARDO GARCIA MORALES,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
DECLARATION VERIFYING TIMELY FILING

Petitioner, LEONARDO GARCIA MORALES, through undersigned counsel and pursuant
to Sup. CT. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of Certiorari filed in
the above-styled matter was placed in the U.S. mail in a prepaid first class envelope, addressed to
the Clerk of the Supreme Court of the United States, on the 26th day of July, 2021, which is the date

that the petition for writ of certiorari is due.

RICHARD C, KLUGH, ESQ.
Counsel for Petitioner
Courthouse Center

40 N.W. 3rd Street, PH 1
Miami, Florida 33128

Tel. No. (305) 536-1191

Miami, Florida
July 2021
